CERTIFICATE OF SERVICE
No. ____

JANE DOE, minor child who is unborn, by and through
her father and next friend, John Doe,
Petitioner,
v.
MIKE HUNTER, in his official capacity as Oklahoma Attorney General; MARY
FALLIN, in her official capacity as Oklahoma Governor; MATTHEW G.
WHITAKER, in his official capacity as Acting U.S. Attorney General; U.S.
DEPARTMENT OF JUSTICE;
and THE UNITED STATES OF AMERICA,
Respondents
I certify that on July 22, 2020, at the time of first class mail delivery to this Court, I
served the petition for writ of certiorari and the appendix, pursuant to Rules 29.3
and 29.4(a), on counsel for the federal respondents, by depositing a copy of the
same, first class postage prepaid, in the United States mail, addressed to:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave. N.W.
Washington, D.C. 20530-0001
Attorney General of the United States
U.S. Department of Justice
950 Pennsylvania Ave. N.W.
Washington, D.C. 20530-0001
R. Trent Shores
Cathryn D. McClanahan
Office of the United States Attorney
110 West 7th Street, Suite 300
Tulsa, Oklahoma 74119

I further certify that on July 22, 2020, I served the petition for writ of certiorari and
the appendix, pursuant to Rules 29.3, on counsel for the state respondents, by
electronic means, at the email addresses below. Electronic service was agreed to by
the respondents’ counsel on July 21, 2020, pursuant to the U.S. Supreme Court’s
Order on April 15, 2020, (available at:
https://www.supremecourt.gov/orders/courtorders/041520zr_g204.pdf) where parties
were “strongly encouraged to use electronic service” where feasible and when agreed
to.
Mithun Mansinghani
Solicitor General
Oklahoma Office of the Attorney General
Mithun.Mansinghani@oag.ok.gov
Zach West
Assistant Solicitors General
Oklahoma Office of the Attorney General
zach.west@oag.ok.gov
Andy Ferguson
Oklahoma Office of the Attorney General
andy.ferguson@oag.ok.gov
As a result, I state pursuant to Rule 29.5 that all parties required to be served have
been served.
Executed on July 22, 2020.

s/ Kristine L. Brown
KRISTINE L. BROWN
Counsel of Record
8700 E. Jefferson Ave. #371703
Denver, Colorado 80237
P: (302) 515-2721
kristi@kristiburtonbrown.com
Counsel for Petitioner

LIST OF COUNSEL
To the best of the knowledge of Counsel of Record, below are the names, parties
represented, addresses, phone numbers, and email addresses of the counsel
involved in this matter:
Representing the Petitioner:
KRISTINE L. BROWN
Counsel of Record
8700 E. Jefferson Ave. #371703
Denver, Colorado 80237
Phone: (302) 515-2721
Email: kristi@kristiburtonbrown.com
Representing the Federal Respondents:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave. N.W.
Washington, D.C. 20530-0001
Phone: (202) 514-2203
Attorney General of the United States
U.S. Department of Justice
950 Pennsylvania Ave. N.W.
Washington, D.C. 20530-0001
Phone: (202) 514-2000
R. Trent Shores
Cathryn D. McClanahan
Office of the United States Attorney
110 West 7th Street, Suite 300
Tulsa, Oklahoma 74119
Phone: 918-382-2700
Email: cathy.mcclanahan@usdoj.gov
Representing the Oklahoma Respondents:
Mithun Mansinghani
Solicitor General
Oklahoma Office of the Attorney General
313 NE 21st Street
Oklahoma City, OK 73105

Phone: (405) 522-4392
Email: Mithun.Mansinghani@oag.ok.gov
Zach West
Assistant Solicitors General
Oklahoma Office of the Attorney General
313 NE 21st Street
Oklahoma City, OK 73105
Email: zach.west@oag.ok.gov
Andy Ferguson
Oklahoma Office of the Attorney General
313 NE 21st Street
Oklahoma City, OK 73105
Email: andy.ferguson@oag.ok.gov

